           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


      ADMINISTRATIVE COSTS
         CLAIMED BY THE
     RHODE ISLAND DISABILITY
     DETERMINATION SERVICES

     December 2007   A-01-06-15069




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM
Date:      December 13, 2007                                                    Refer To:

To:        Manuel J. Vaz
           Regional Commissioner
            Boston

From:      Inspector General

Subject:   Administrative Costs Claimed by the Rhode Island Disability Determination Services
           (A-01-06-15069)


           For our audit of Fiscal Year (FY) 2003 and 2004 administrative costs claimed by the
           Rhode Island Disability Determination Services (RI-DDS), our objectives were to:
                    evaluate the RI-DDS’ internal controls over the accounting and reporting of
                     administrative costs;
                    determine whether costs claimed by the RI-DDS were allowable and funds were
                     properly drawn; and
                    assess limited areas of the general security controls environment.

           BACKGROUND
           Disability determinations under the Social Security Administration’s (SSA) Disability
           Insurance and Supplemental Security Income programs are performed by disability
           determination services (DDS) in each State or other responsible jurisdiction, according
           to Federal regulations. 1 Each DDS is responsible for determining claimants’ disabilities
           and assuring that adequate evidence is available to support its determinations.

           To make proper disability determinations, each DDS is authorized to purchase
           consultative medical examinations and medical evidence of record from the claimants’
           physicians or other treating sources. SSA pays the DDS for 100 percent of allowable
           expenditures using a State Agency Report of Obligations for SSA Disability Programs
           (SSA Form-4513). The DDS withdraws Federal funds through the Department of the
           Treasury’s Automated Standard Application for Payments (ASAP) system to pay for
           program expenditures. (For additional background information, see Appendix B of this
           report.)



           1
               20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et seq.
Page 2 – Manuel J. Vaz


RESULTS OF REVIEW
We determined that the costs claimed on SSA Form-4513 for the period
October 1, 2002 through September 30, 2004 were allowable and properly allocated.
However, the RI-DDS did not have effective controls regarding the reporting and
accounting of administrative costs; and as a result, the DDS had about $1.2 million in
draw downs from the ASAP system that exceeded the costs reported on the
SSA Form-4513 for FYs 2003 and 2004. (See Appendix C for costs reported on
SSA Forms-4513.) Our limited review of the RI-DDS’ security controls environment
showed that controls were in place.

CASH MANAGEMENT

RI-DDS could not provide supporting documentation for the aggregate of the SSA funds
drawn down from ASAP. As a result, it appears that either (a) cash was overdrawn in
FYs 2003 and 2004 and/or (b) the draw downs were appropriate but the costs claimed
on the SSA Forms-4513 for these 2 years were understated—as shown in the table
below.

                        Table: SSA–4513 Compared to ASAP
                                                      ASAP Draws
                       Expenditures                      Exceed
                        Claimed on       ASAP        Expenditures on
            FY          SSA–4513      Cash Draws       SSA–4513
           2003            $6,502,956    $6,531,860          $28,904
           2004            $6,421,512    $7,611,772       $1,190,260
                                             Totals       $1,219,164

Initially, during our review, RI-DDS’ cash draws appeared to be overdrawn by
$1.2 million in FYs 2003 and 2004. Then, in May 2007, we spoke to an official from the
State of Rhode Island, whose department is responsible for handling the RI-DDS cash
draw downs. When we asked about the apparent overdrafts, the official informed us he
did not believe cash was overdrawn. He informed us that he believed RI-DDS did not
report all allowable costs on its SSA Forms-4513 and that a comparison of (a) the
detailed files containing the costs used to draw down cash from ASAP to (b) the costs
the RI-DDS included on its SSA Forms-4513 would show allowable costs that were
missing on the SSA Forms-4513.

RI-DDS provided us with supporting documentation for costs totaling $338,038 which
were not reported on the SSA-4513. Based on our own analysis, we determined the
$338,038 were allowable costs for FY 2004. 2 If the RI-DDS included these allowable
costs on the SSA Form-4513, the overdraft for FY 2004 would total $852,222 (instead of
the $1,190,260) and the 2-year overdraft would decrease to $881,126 (from
2
 For example, $308,344 of the $338,038 related to personnel costs for the month of August 2004; and
these allowable costs were inadvertently excluded from the SSA Form-4513 for FY 2004.
Page 3 – Manuel J. Vaz


$1,219,163). The RI-DDS could not provide supporting documentation for the
remaining $852,222 in ASAP draw downs in FY 2004 or $28,904 in FY 2003.
Therefore, we could not determine if the $881,126 ASAP draw down was appropriate.

Furthermore, although our review only focused on the costs for FYs 2003 and 2004,
SSA Regional Office staff informed us that the RI-DDS appeared to also have
overdrafts on the ASAP system for FY 2002 in the amount of $84,335 and for FY 2005
in the amount of $785,600. Specifically, records showed:
    •   For FY 2002, RI-DDS claimed $6,597,149 on the SSA Form-4513 but the ASAP
        cash draw was for $6,681,484.
    •   For FY 2005, RI-DDS claimed $6,449,978 on the SSA Form-4513 but the ASAP
        cash draw was for $7,235,578.

To fully address the discrepancies between the costs claimed on the SSA Forms-4513
and the cash drawn from the ASAP system for FYs 2002 through 2005, RI-DDS needs
to reconcile its data from FY 2002 to the present to determine if the ASAP system was
overdrawn and/or if the costs recorded on the SSA Forms-4513 were understated. As
mentioned earlier, we attempted to reconcile the costs for FYs 2003 and 2004, but we
were unable to do so based on the documentation provided by the DDS. 3

CONCLUSION AND RECOMMENDATION
We determined that the costs claimed on SSA Forms-4513 for the period
October 1, 2002 through September 30, 2004 were allowable and properly allocated.
However, the RI-DDS did not have effective controls regarding the reporting and
accounting of administrative costs. Therefore, we recommend SSA instruct the RI-DDS
to reconcile the SSA Form-4513 for FYs 2002 through the present and compare the
SSA Form-4513 costs to the amounts drawn down. Further, if the DDS can not support
the costs drawn down through the ASAP system, SSA should request that the RI-DDS
return the excess funds. If, on the other hand, the reconciliation shows that the DDS did
not include all costs on the SSA Form-4513, SSA should instruct the DDS to amend the
SSA Form-4513 as appropriate.

AGENCY COMMENTS
SSA agreed with the recommendation. (See Appendix D.)




3
  We initially requested data for the RI-DDS’ costs for FYs 2003 and 2004 in February 2005. It was not
until February 2007 (2 years later) that the DDS provided us sufficient information for us to start our
review.
Page 4 – Manuel J. Vaz


OTHER MATTERS

In September 2005 the Office of the Inspector General (OIG) issued a report titled
Disability Determination Services' Use of Social Security Numbers on Third-Party
Correspondence (A-04-05-15098). In this report the OIG recommended SSA:

      Clarify existing policy to define what third parties may be provided a
      claimant's Social Security Number (SSN) as a part of the DDS's
      disability determination process. To ensure SSN integrity, we believe
      the SSN should only be disclosed when it is critical to a third party's
      ability to adequately respond to the DDS's information request.

SSA agreed with this recommendation and stated:

      A claimant's SSN should only be disclosed when it is critical to a third
      party's ability to adequately respond to a DDS's information request.
      We will review and, to the extent necessary, clarify our existing policy to
      more clearly define which third parties should be provided a claimant's
      full or partial SSN as part of the DDS evidence collection process.

We asked RI-DDS its current and past practices related to including the SSN on
documents sent to third parties. RI-DDS informed us it deleted the SSN from the
Medical Evidence of Record (MER) and consultative examinations letters in 2005 and
taxi companies letters in 2006. RI-DDS also informed us that on August 30, 2007, it
deleted the SSN from letters sent to Interpreters requesting their services.

RI-DDS informed us it currently does not include the SSN in any correspondence
except on automated nightly follow-up letters to MER vendors. RI-DDS stated it is
working with the provider of the case processing software to change the letter to
exclude the SSN; however, they are uncertain if/when the change will take place.

We commend RI-DDS for the efforts taken to ensure that SSNs are not disclosed in
correspondence to vendors and we encourage it to continue these efforts to exclude the
SSN from the automated nightly follow-up letters to MER vendors.




                                                   Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope and Methodology

APPENDIX C – Schedule of Total Costs Reported on SSA Form-4513—State Agency
             Report of Obligations for SSA Disability Programs

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                 Appendix A

Acronyms
Act             Social Security Act
ASAP            Automated Standard Application for Payments
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
FY              Fiscal Year
MER             Medical Evidence of Record
OIG             Office of the Inspector General
OMB             Office of Management and Budget
Pub. L. No.     Public Law Number
RI-DDS          Rhode Island Disability Determination Services
SSA             Social Security Administration
SSA Form-4513   State Agency Report of Obligations for SSA Disability Programs
SSI             Supplemental Security Income

SSN             Social Security Number
Treasury        Department of Treasury
                                                                               Appendix B

Background, Scope and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico and the District of Columbia in
accordance with Federal regulations. 1 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase medical examinations, x-rays and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990. 3 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s (OMB) Circular
A-87, Cost Principles for State, Local, and Indian Tribal Governments. At the end of
each quarter of the Fiscal Year (FY), each DDS submits a State Agency Report of
Obligations for SSA Disability Programs (SSA Form-4513) to account for program
disbursements and unliquidated obligations.

SCOPE

To accomplish our objectives, we reviewed the administrative costs the Rhode Island
Disability Determination Services (RI-DDS) reported on its SSA Forms-4513 for
FYs 2003 and 2004. For the periods reviewed, we obtained evidence to evaluate

1
    20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et seq.
2
    31 C.F.R. Part 205.
3
    Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat 1058.


                                                   B-1
recorded financial transactions and determine whether they were allowable under OMB
Circular A-87, and appropriate, as defined by SSA’s Program Operations Manual
System (POMS).

We also:
      Reviewed applicable Federal laws, regulations and pertinent parts of POMS DI
       39500, DDS Fiscal and Administrative Management, and other instructions
       pertaining to administrative costs incurred by RI-DDS and draw down of SSA
       funds covered by the Cash Management Improvement Act.
      Interviewed staff at RI-DDS and the SSA Regional Office.
      Evaluated and tested internal controls regarding accounting and financial
       reporting and cash management activities.
      Verified the reconciliation of official State accounting records to the administrative
       costs reported by RI-DDS on SSA Forms-4513 for FYs 2003 and 2004.
      Examined the administrative expenditures (personnel, medical service, and all
       other non-personnel costs) incurred and claimed by RI-DDS for FYs 2003 and
       2004 on SSA Forms-4513.
      Recomputed indirect costs claimed by RI-DDS for FYs 2003 and 2004 based on
       the approved indirect cost allocation plan.
      Compared the amount of SSA funds drawn to support program operations to the
       allowable expenditures reported on SSA Forms-4513.
      Reviewed the State of Rhode Island Single Audit reports issued in 2003 and
       2004.
      Conducted limited general control testing—which encompassed reviewing the
       physical access security within the DDS.

The electronic data used in our audit was sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling it with the
costs claimed on the SSA Forms-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the RI-DDS in Providence, Rhode Island and the Office of
Audit in Boston, Massachusetts from April 2007 through August 2007. We conducted
our audit in accordance with generally accepted government auditing standards.

METHODOLOGY

Our sampling methodology encompassed the three general areas of costs as reported
on SSA Forms-4513: (1) personnel, (2) medical, and (3) all other non-personnel costs.
We obtained computerized data from RI-DDS for FYs 2003, and 2004 for use in
statistical sampling.




                                            B-2
Personnel Costs

We sampled 43 employee salary items from 1 randomly selected pay period in
FY 2004. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure the RI-DDS correctly paid
employees and adequately documented these payments.

We also sampled 50 randomly selected medical consultant costs from FY 2004. We
determined whether sampled costs were reimbursed properly and ensured the selected
medical consultants were licensed.

Medical Costs

We sampled a total of 100 medical evidence of record and consultative examination
expenses (50 items from each FY) using a proportional random sample. We
determined whether sampled costs were properly reimbursed.

All Other Non-Personnel Costs

We stratified all other non-personnel costs into 8 categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing Maintenance,
(4) Equipment Rental, (5) Communications, (6) Applicant Travel, (7) Supplies, and
(8) Miscellaneous. We selected a stratified random sample of 50 items from each FY
based on the percentage of costs in each category (excluding the rent portion of
Occupancy) to total costs. We also performed a 100 percent review of the rent portion
of Occupancy expenditures.




                                         B-3
                                                                               Appendix C

Schedule of Total Costs Reported on
SSA Form-4513—State Agency Report of
Obligations for Social Security Administration
Disability Programs
               Rhode Island Disability Determination Services

                    FISCAL YEARS (FY) 2003 and 2004 COMBINED
                                                     UNLIQUIDATED                 TOTAL
     REPORTING ITEMS      DISBURSEMENTS              OBLIGATIONS               OBLIGATIONS
    Personnel                $7,620,254                    $0                   $7,620,254
    Medical                  $3,255,527                    $0                   $3,255,527
    Indirect                   $620,996                    $0                     $620,996
    All Other                $1,427,691                    $0                   $1,427,691
                                       1
    TOTAL                  $12,924,468                     $0                  $12,924,468

                                            FY 2003
                                                     UNLIQUIDATED                  TOTAL
     REPORTING ITEMS      DISBURSEMENTS              OBLIGATIONS               OBLIGATIONS
    Personnel                $3,847,357                    $0                   $3,847,357
    Medical                  $1,657,822                    $0                   $1,657,822
    Indirect                   $302,833                    $0                     $302,833
    All Other                  $694,944                    $0                     $694,944
    TOTAL                    $6,502,956                    $0                   $6,502,956
                                            FY 2004
                                                     UNLIQUIDATED                 TOTAL
     REPORTING ITEMS      DISBURSEMENTS              OBLIGATIONS               OBLIGATIONS
    Personnel                $3,772,897                    $0                   $3,772,897
    Medical                  $1,597,705                    $0                   $1,597,705
    Indirect                   $318,163                    $0                     $318,163
    All Other                  $732,747                    $0                     $732,747
    TOTAL                    $6,421,512                    $0                   $6,421,512




1
 As noted in the body of the report, the cash draw downs exceeded the disbursements recorded on the
SSA Form-4513.
                                                                                     Appendix D

           Agency Comments




                                          SOCIAL SECURITY
MEMORANDUM


Date:      November 20, 2007                                                      Refer To:   S2D1G5/DI-16

To:        Patrick J. O’Carroll., Jr.
           Inspector General

From:      Manuel J. Vaz /s/
           Regional Commissioner
           Boston

Subject:   Administrative Costs Claimed by the Rhode Island Disability Determination Services
           (A-01-06-15069) (Your Memo, 10/18/07) - REPLY


           We have reviewed the draft report on the administrative costs audit (A-01-06-15069) for the
           Rhode Island Disability Determinations Services for Fiscal Years (FYs) 2003 and 2004.

           We fully support the recommendation that the RI DDS reconcile the SSA Form-4513
           expenditure reports for the FYs 2002 through the present, and to compare the SSA Form-4513
           costs to the amounts drawn down.

           We appreciate the time and effort the auditors put into trying to resolve the draw down issues
           for the years under their audit, as well as for the additional years (FY2002 and FY 2005) we
           further questioned. It is unfortunate that the State was unable to provide the information the
           auditors needed to fully resolve this during their audit.
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Frank Salamone, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General's Public Affairs
Specialist at (410) 965-3218. Refer to Common Identification Number A-01-06-15069.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.


                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
